THE OFFICE ON VIOLENCE AGAINST WOMEN’S 

 RECOVERY ACT GRANT SELECTION PROCESS


         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


             Audit Report 10-31 

                 July 2010

           THE OFFICE ON VIOLENCE AGAINST WOMEN’S

            RECOVERY ACT GRANT SELECTION PROCESS 


                            EXECUTIVE SUMMARY


      The Department of Justice’s (DOJ) Office on Violence Against Women
(OVW) administers formula, block, and discretionary grant programs
dedicated to reducing and prosecuting crimes against women.1 The
American Reinvestment and Recovery Act (Recovery Act) provided a total of
$225 million to six OVW grant programs.

       The OVW received an average appropriation of over $380 million each
fiscal year (FY) from 2006 to 2008. Between the $225 million the OVW
received via the Recovery Act, combined with the $387 million appropriation
the OVW received for its FY 2009 programs, the OVW received a total of
$612 million in funding during FY 2009, which was nearly 60 percent more
funding than it had received in recent fiscal years.

       As of March 2010, the OVW has awarded 279 Recovery Act grants
totaling over $215 million, which constitutes over 99 percent of the Recovery
Act funds it has planned to use for grant awards.

OIG Audit Approach

       As part of the Department of Justice Office of the Inspector General’s
(OIG) ongoing Recovery Act oversight initiative, we conducted this audit to
review how the OVW administered, assessed, and awarded Recovery Act
grants.2 The scope of our audit included OVW Recovery Act award-making
activities that began in February 2009.

     To accomplish our objective, we analyzed grant decision and
procedural documents. Our analysis examined internal scoring sheets used
by OVW peer reviewers and staff to allocate points and rank each proposal.
We also discussed award procedures and grant selection results with over 20
OVW officials, employees, and contractors. We performed our review both

       1
          The OVW makes formula and block grants to entities using legislative requirements
that generally dictate who may receive an award and the amount of each award. Although
the OVW must follow various DOJ and program-level guidelines in making discretionary
grants, discretionary grant programs usually provide the OVW with much more latitude in
determining who should receive an award.
       2
         U.S. Department of Justice Office of the Inspector General, Recovery Act Oversight
Plan – Updated (October 2009).


                                             i
at OVW offices in Washington, D.C., and at the headquarters of its logistical
contractor, Lockheed Martin Aspen Systems Corporation (Lockheed Martin)
in Rockville, Maryland.

     Appendix I includes additional details on this audit’s objective, scope,
and methodology.

Results In Brief

      The Recovery Act provided the OVW with 60 percent more funding
than it had received in prior years. This increase potentially presented a
challenge to OVW, requiring it to announce, review, and select both FY 2009
and Recovery Act programs during the same period of time. Our audit
concluded that the OVW complied with Recovery Act and grant program
requirements in awarding the Recovery Act funds. In particular, the OVW
quickly announced award opportunities and provided applicants sufficient
time to apply for awards, and used a grant selection process that was
generally transparent and objective. However, the audit identified various
procedural shortcomings with how the OVW handled some of its grant
applications.

       Our audit described how after the Recovery Act was enacted, OVW
officials developed a spending plan that detailed how it anticipated using
Recovery Act funds. According to the spending plan, the OVW was to use
about $216 million in Recovery Act funds to award grants under six
programs. As shown in the following table, the OVW also reserved or “set
aside” $8.6 million to pay for projected costs associated with evaluating
grant proposals, training grant recipients, and providing technical assistance
to supported projects.




                                      ii
                  OVW RECOVERY ACT GRANT PROGRAMS 


                                                                             Amount of
                                                                            Recovery Act
                                                                              Funding
                     OVW Program and Description                                ($)
Services, Training, Officers, and Prosecutors (STOP). These
formula grants support community-level criminal justice and victim
                                                                              140,376,000
services that address violent crimes against women and strengthen law
enforcement and prosecution strategies.
Transitional Housing Assistance (Transitional Housing). These
discretionary grants help provide public and private transitional housing
                                                                               43,000,000
services that focus on moving victims of domestic violence, dating
violence, sexual assault, and stalking into permanent housing.
State Sexual Assault Coalitions. These block grants provide each
state sexual assault coalition with funding to support and offer training       4,375,000
to rape crisis centers.
State Domestic Violence Coalitions. These block grants support
statewide domestic violence coalition efforts that assist battered              4,375,000
women’s shelters and other domestic violence victim service providers.
Tribal Domestic Violence and Sexual Assault Coalitions
(Tribal Coalitions). These discretionary grants assist tribal coalition         2,873,750
initiatives to end violence against Indian and Alaska Native women.
Tribal Governments. These discretionary grants serve to decrease
and respond to violent crimes committed against Indian and Alaska              21,386,640
Native women.
Training, Technical Assistance, and Other Support. The OVW
reserved Recovery Act funds to pay for anticipated costs associated with
                                                                                8,613,610
instructing grantees how to account for federal funds properly and
overseeing the performance of various projects.
                    TOTAL OVW RECOVERY ACT PROGRAM FUNDING                  $ 225,000,000
Source: OVW

       The OVW spending plan complied with Recovery Act and programmatic
requirements. We found that the OVW announced Recovery Act funding
activities expeditiously and provided an adequate amount of time for
organizations to apply for awards. By March 2010, the OVW awarded 279
Recovery Act grants worth over $215 million.

      Yet, although the OVW generally used a transparent and fair process
to select Recovery Act recipients, our audit identified various weaknesses in
how the OVW handled some discretionary grant applications. An important
part of OVW’s multiple-step discretionary award process involves a peer
review where individual program experts independently evaluate and score
applications. Once peer reviewers finish assessing applications and
tabulating scores, the OVW uses the scores to rank applications by program.
While peer review scores are not the only factor in deciding which
organizations should receive an award, OVW staff consulted these rankings


                                            iii
to identify which proposals peer reviewers determined to be the most
worthwhile.

      Our audit revealed that in tabulating individual application scores,
OVW peer reviewers added points incorrectly. A significant number of
miscalculations occurred while assessing applications for the Tribal
Governments program. In that program, OVW staff incorrectly calculated
peer review scores for at least 39 out of 76 applications. The miscalculations
resulted in some Tribal Governments proposals being ranked above other
proposals that we determined should have received higher peer review
scores. Because most of the award decisions aligned with peer review
scores, we determined that the miscalculations that led to incorrect scores
negatively affected the chances of at least two Tribal Governments proposals
from receiving funds.3

       Based on our interviews with OVW managers and staff members, we
determined that the miscalculations that affected the award decision-making
process were caused by human error in adding points. Nevertheless, since
such miscalculations affect discretionary award decisions, the OVW needs to
institute better internal controls to check for errors in calculating scores and
verify the score accuracy before ranking proposals based on peer review
results.

       Our audit also revealed a weakness in how peer reviewers were
screened for conflicts of interest before evaluating and scoring applications.
In at least 23 instances, peer reviewers signed and dated conflict of interest
forms before the date they were assigned specific applications to review.
While our audit did not identify specific instances where peer reviewers had
a conflict of interest, we believe that OVW needs to strengthen its conflict of
interest procedures to ensure that peer reviewers review assigned
applications for potential conflicts of interest before evaluating and scoring
applications.

      The OVW should also improve how it maintains award decision
documents so that it has an adequate record of the reasons for selecting the
grantees that it did. For example, the OVW misplaced important award
decision documents, including 10 peer review scoring sheets, which should
be maintained to substantiate why an applicant did or did not receive
recommendations for discretionary awards.




      3
          These two applicants later received non-Recovery Act awards for the same or
similar programs proposed under the Recovery Act program. 

                                            iv
      The recommendation memorandum for one OVW program, Tribal
Governments, did not detail why some higher-scoring applicants did not
receive award recommendations. As a result, the OVW did not meet a
specific DOJ grant-making guideline that was established in May 2008 to
ensure awarding agencies sufficiently document reasons for award decisions.

      Finally, while the OVW has awarded over $215 million in program
grants, about $1.2 million, or less than 1 percent of its Recovery Act funds,
has not yet been awarded. OVW officials told us that they are developing a
plan to ensure that these remaining Recovery Act funds will be used for
allowable programmatic and Recovery Act purposes.

      Our audit provides the OVW with five recommendations that we
believe will enhance the transparency and fairness of its grant selection
process. The remaining sections of this executive summary discuss our
audit findings in more detail.

Preliminary OVW Recovery Act Activities

      The Recovery Act provided the OVW with $175 million for violence
against women prevention and prosecution programs authorized by the
Violence Against Women Act (VAWA) and $50 million for its Transitional
Housing Assistance (Transitional Housing) program, which provides grants to
organizations that help domestic violence and sexual assault victims find
short-term housing solutions away from their abusers. The authorizing
statutes governing both VAWA and Transitional Housing dictate how the
OVW must allocate its funds between various grant programs and limit how
much funding the OVW can use for training and technical assistance instead
of grants. We determined that the OVW complied with program allocation
requirements in drafting its spending plan and set aside an allowable amount
of Recovery Act funds – about $8.6 million – to train grantees and provide
the OVW with technical assistance.

       The OVW posted program solicitations in March 2009 that announced
the availability of Recovery Act funds for grants. We determined that each
solicitation properly outlined applicant eligibility, program purpose areas,
and application requirements while providing applicants an average of 23
days to apply for funds.

      The OVW received a total of 819 applications for grant assistance.
Included in this figure were 565 applications for Transitional Housing
program assistance, which was more than double the number of applicants
the OVW received for its FY 2009 Transitional Housing program. Based on
the number of organizations that submitted applications for Recovery Act

                                      v
awards, we concluded that the OVW provided a reasonable amount of time
for applicants to apply for Recovery Act awards.

Selecting Recovery Act Grant Recipients

       The OVW used different methods to review applications depending on
whether the applications were for formula, block, or discretionary grants.
For the STOP formula and its state and territory coalition block grants,
authorizing legislation designated both who the award recipients could be
and how the OVW should determine the amount of each award. Before
finalizing block and formula awards, the OVW needed to review each
application for completeness and ensure that the applicant was eligible to
receive a grant.

      The OVW employed a multi-step process to select recipients for its
three discretionary Recovery Act grant programs. Discretionary Transitional
Housing grants supported organizations that help provide short-term
housing solutions to victims of domestic and sexual violence. Two additional
discretionary grant programs, Tribal Governments and Tribal Domestic
Violence and Sexual Assault Coalitions (Tribal Coalitions), provided awards
to help Indian and Alaska Native women who are victims of violent crimes.
Unlike the formula and block grant programs, the OVW had to review and
evaluate proposals for these discretionary programs before it decided which
organizations should receive a grant.

      An important part of the OVW discretionary grant selection process
was the peer review. Both OVW employees and hired contractors served as
peer reviewers for Recovery Act grant applications.4 Peer reviewers
independently evaluated specific elements of assigned grant proposals and
used OVW-provided scoring sheets to compute a peer review score for each
proposal. Peer reviewers then met in panels comprised of two or three peer
reviewers to discuss the results of their review and compute a panel score
for each application.

      However, because a peer review panel does not evaluate the merits of
all applications, peer review results are just one of the criteria that OVW
award decision makers use to select discretionary grant recipients. Once
peer reviewers scored individual applications, the OVW ranked the scores
and considered program award requirements, such as geographic disparity,
to recommend specific applicants for awards. OVW program staff then


      4
          The OVW used contracted peer reviewers to assess applications for Recovery Act
Transitional Housing program grants and OVW staff peer reviewed proposals for Tribal
Governments and Tribal Coalitions.

                                            vi
compiled a memorandum for the acting OVW Director’s approval. According
to OVW officials, the award recommendation portion of the peer review
process for the first time in recent years involved using a risk assessment
tool to identify whether an applicant was at risk for fraud and should not
receive a grant award.

      Although the OVW generally conducted a transparent and fair process
to select Recovery Act recipients, our audit identified some weaknesses with
regard to how the OVW handled certain applications for discretionary
awards. The following sections summarize our findings and
recommendations.

Peer Review Conflict of Interest Procedures

       Before formally evaluating and scoring applications, the OVW asked its
contracted peer reviewers to review the applications assigned to them and
identify whether they had a potential conflict of interest. An OVW contractor
provided peer reviewers with a form listing various examples of potential
conflicts of interest, including whether a peer reviewer was a prior employee
of an applicant. Peer reviewers were asked to either submit the form
certifying that he or she did not have a conflict of interest or notify the
contractor of any potential conflict so that the peer reviewer could be
reassigned to another peer review panel.

       Although we did not identify conflicts of interest between contracted
peer reviewers and the applications they reviewed, our review of 148 conflict
of interest forms identified 23 forms that peer reviewers signed and dated
before they received their assigned application packets. Therefore, we
believe some peer reviewers attested that they were free from conflicts of
interest even though they did not yet know the specific applicants and the
proposals they were to evaluate. The OVW needs to ensure that its peer
reviewers follow the procedures that it establishes to ensure peer reviewers
are impartial and fair. Therefore, we recommend that the OVW require that
its peer reviewers carefully review assigned applications for potential
conflicts of interest and ensure that they sign conflict of interest forms after
being assigned applications for review but before they actually begin
evaluating and scoring proposals.




                                      vii
Peer Review Score Miscalculations

      Grant proposal peer review scores are comprised of points allocated to
specific application elements. For example, peer reviewers could allocate up
to 8 points to applications that had clear goals and objectives and 7 points to
applications that proposed feasible activities that would be completed by the
end of the grant’s timeframe. Peer reviewers used scoring sheets to keep
track of the points assigned to each application element and calculate
subtotal scores for each section. After peer reviewers finished scoring
applications, panels comprised of two or three peer reviewers convened to
compare notes and discuss individual peer review results.

       We examined individual scoring sheets to ascertain whether peer
reviewers calculated application scores correctly and found that OVW staff
did not add the element and subtotal points correctly. Out of 77 applications
for Tribal awards, our review identified 43 proposals that received incorrect
scores due to calculation errors.

       The following example shows how multiple mistakes in adding scoring
sheet points caused a proposal to receive an incorrect final score. For one
Tribal Governments application, a peer reviewer allocated a total of 26
points to different elements of the project narrative subsection. To obtain
the subsection total, peer reviewers had to add manually the points for each
project narrative element. For this application, the peer reviewer incorrectly
added the points for each element and recorded a section subtotal of 28
points instead of 26 points.

       Peer reviewers then used a separate summary sheet to add subsection
subtotal scores to calculate the individual final score for each application.
The peer reviewer carried over the incorrect 28-point subtotal for the project
narrative section to the summary sheet and also incorrectly summed the
subtotals from the different sections on the summary sheet. Applying
incorrect subtotal scores, the application should have received a 79-point
total. Instead, the application received a total of 80 points. Therefore, the
dual miscalculations led to this application receiving a peer review score of
80 points instead of the correct 77 points.

      Because the OVW considered score rankings to select which applicants
receive discretionary grants, we believe that the scoring errors affected the
chances of at least 5 out of the 87 applicants considered to receive Tribal
Governments awards. Of these five applications, miscalculations




                                      viii
erroneously raised the rankings of three applications over two others that
actually received higher scores.5

       During our review, we discussed specific miscalculations with OVW
officials who administered the scoring process. Based on these discussions
and the evidence provided by the scoring sheets, we believe that human
error in adding element and subtotal points caused these scoring
discrepancies. Even slight miscalculations of an application’s final score may
enhance or impair the chance an applicant has to receive a recommendation
for an OVW award. It is therefore critical that the OVW ensure that its
application reviewers consistently compute scores it subsequently ranks to
make award recommendations. Because miscalculations and other scoring
errors diminished the value and objectivity of the process the OVW used to
make discretionary award decisions, we recommend that the OVW institute
better internal controls that will check for scoring errors and verify the
accuracy of future final peer review scores.

Maintaining Application Materials and Documenting Award Decisions

      When we were conducting our audit, we determined that OVW staff
lost portions of 10 Tribal Governments scoring sheets used by peer
reviewers and staff to assign scores to applications. As a result, we could
not verify whether OVW staff correctly computed peer review scores for
these applications. Because peer review scoring sheets play an integral part
of award selection process, we recommend that the OVW implement
procedures to ensure that its staff members maintain copies of these
documents.




       5
         The two applications that were negatively affected by miscalculations subsequently
received FY 2009 awards for the same or similar activities they proposed to perform with
Recovery Act funds.

                                            ix
      Once OVW staff finished evaluating applications, they compiled a
memorandum for each program to the acting OVW Director to recommend
proposals that should receive Recovery Act awards. DOJ guidelines dated
May 2008 and issued by the Associate Attorney General require that when
lower-scoring applications receive awards over higher-scoring applications,
the OVW must document the reasons why the higher-scoring applicants
were not selected in the award recommendation memorandum. However,
the award recommendation memorandum compiled for the Tribal
Governments program did not comply with this requirement because it did
not provide justifications documenting why six higher-scoring applicants
were not recommended to receive a Recovery Act award.

      OVW staff members told us that they excluded five of the six higher-
scoring applicants because of negative risk assessment results and the
remaining applicant was excluded because program requirements preclude
too many awards from going to the same state or territory. We concluded
that the OVW had adequate reasons for not providing awards to these
applicants, but it should have documented these reasons as required by DOJ
rules. We recommend that the OVW in the future should ensure that it
details why it does not recommend higher-scoring applicants in award
recommendation memoranda.

Unawarded Recovery Act Funds

      Of the $225 million provided by the Recovery Act, the OVW allocated
$216 million for awards under six grant programs. The OVW has awarded
over $215 million in program grants, which has left over $1.2 million, or less
than 1 percent of Recovery Act funds, not yet awarded.




                                      x
       UNAWARDED RECOVERY ACT FUNDS BY OVW PROGRAM 


                                               Recovery Act
                                                Funds Made            Funds
                                               Available For      Available for
                                                   Grants            Grants
                    Program Name                     ($)               ($)
      STOP                                          140,376,000          630,072
      Transitional Housing                           43,000,000          348,684
      State Sexual Assault Coalitions                 4,375,000          156,250
      State Domestic Violence Coalitions              4,375,000           78,125
      Tribal Coalitions                               2,873,750              228
      Tribal Governments                             21,386,640           63,388
                                       TOTALS   $ 216,386,390       $ 1,276,747
     Sources: 	 OVW spending plans and OIG analysis of grant award amounts 

                as of March 2010


      Considering that each OVW Recovery Act grant program still has
unawarded funds, we spoke to OVW officials who told us that they are
developing a plan to ensure that the OVW will use the more than
$1.2 million in remaining Recovery Act funds for allowable programmatic and
Recovery Act purposes.

Conclusion and Recommendations

      The OVW administered six grant programs with the $225 million it
received in Recovery Act funds. We found that the OVW complied with
tested Recovery Act and grant program requirements in budgeting funds for
its Recovery Act grant programs.

       We determined that the OVW Recovery Act grant selection process
was generally expeditious, transparent, and objective. However, the audit
identified various procedural shortcomings with how the OVW handled some
of its grant applications. Once peer reviewers finished evaluating proposals,
we determined that the OVW incorrectly calculated the scores of several
applications. For example, the scores for 39 out of 76, or about half of the
Tribal Governments applications, were calculated incorrectly. Because the
OVW considers peer review scores while finalizing award decisions,
incorrectly calculated scores affect the chances of whether an application
receives funding. The OVW needs to ensure that peer review scores are
accurate before ranking and selecting applications.




                                         xi
       Additionally, the OVW needs to ensure that it always provides
justifications on its award recommendation memoranda whenever lower-
scoring applications receive awards instead of higher-scoring ones. The
OVW did not document its reasons for funding lower-ranking applications
over six higher-ranking applications. Although OVW was subsequently able
to provide reasonable justifications as to why the higher-ranking applications
were not funded the OVW must ensure that it properly documents its award-
making decisions. The OVW also was not able to provide all the
documentation related to the peer review scores of 10 Tribal Governments
applications. Without these documents, it was not possible for us to
determine whether the OVW computed peer review scores accurately.

      Our audit made five recommendations for the OVW to improve its
grant selection process.




                                     xii
          THE OFFICE ON VIOLENCE AGAINST WOMEN’S 

           RECOVERY ACT GRANT SELECTION PROCESS 


                               TABLE OF CONTENTS


INTRODUCTION .................................................................................1 


Office on Violence Against Women ......................................................... 1 

OIG Audit Objective and Approach ......................................................... 3 


FINDINGS AND RECOMMENDATIONS.................................................5 


I. 	   BUDGETING FOR AND ANNOUNCING OVW RECOVERY ACT

       GRANT PROGRAMS ....................................................................5 


Developing a Spending Plan .................................................................. 5 

Reserving Recovery Act Funds for Training and Technical Assistance .......... 7 

Announcing Recovery Act Grant Opportunities......................................... 7 


II. 	 ASSESSING PROPOSALS AND RECOMMENDING 

      RECOVERY ACT GRANTS ..........................................................11 


Selecting Discretionary Award Recipients.............................................. 12 

   Transitional Housing Program ......................................................... 15

   Tribal Governments and Tribal Coalitions Programs............................ 19

Selecting Formula and Block Award Recipients ...................................... 27 

   STOP Program .............................................................................. 28

   State Domestic Violence and Sexual Assault Coalition Block Programs .. 31 

Recommendations............................................................................. 33 


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .......34 


STATEMENT ON INTERNAL CONTROLS.............................................35 


ACRONYMS ......................................................................................36 


APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY..................37 


APPENDIX II – SCHEDULE OF DOLLAR-RELATED FINDINGS ............40 


APPENDIX III – ASSOCIATE ATTORNEY GENERAL AWARD 

  DOCUMENTATION POLICY ...........................................................41 

APPENDIX IV – OVW RESPONSE TO THE DRAFT REPORT .................43 


APPENDIX V – OFFICE OF THE INSPECTOR GENERAL ANALYSIS
    AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE
    REPORT ................................................................................... 45
                               INTRODUCTION

       The American Recovery and Reinvestment Act of 2009 (Recovery Act),
enacted on February 17, 2009, provides approximately $4 billion to the
Department of Justice (DOJ) in grant funding to be used to enhance state,
local, and tribal law enforcement efforts. Of these funds, the Office on
Violence Against Women (OVW) received $225 million for grant programs
aimed at reducing and prosecuting violent crimes against women.

Office on Violence Against Women

      The OVW administers programs dedicated to reducing and prosecuting
crimes against women. It is led by a presidentially appointed Director who
maintains the authority to approve grants.6 As shown in Exhibit 1, the OVW
has four program divisions and a Tribal Affairs Unit.

         EXHIBIT 1: OVW GRANT PROGRAM ADMINISTRATION




             Source: OVW

      During fiscal year (FY) 2009, the OVW had 65 full-time employees,
including 34 program specialists who were responsible for tracking the

     6
         42 U.S.C. §3796gg (2009)

                                    1

financial activity and project performance of its grants. To gauge grant
performance and ensure proper use of awarded funds, program specialists
review progress and financial reports, provide technical training and
assistance to grant recipients, and conduct on-site visits and desk reviews.

      The OVW received an average appropriation of over $380 million each
FY from 2006 to 2008. The $225 million the OVW received via the Recovery
Act combined with the $387 million appropriated to the OVW for FY 2009
programs meant that the OVW received a total of $612 million in funding
during FY 2009. This figure represents a nearly 60 percent increase in
funding over prior fiscal years. Exhibit 2 shows the increase in award
funding the OVW received in FY 2009.

             EXHIBIT 2: OVW ANNUAL APPROPRIATIONS 

                         FYs 2006 TO 2009 





    Source: OVW appropriations, FYs 2006 to 2009




                                        2

       The increase in FY 2009 funding also led to an increase in the number
of grants the OVW awarded for FY 2009. From FYs 2006 to 2008, the OVW
awarded an average of about 640 grants each year. In FY 2009, the OVW
finalized 980 total awards, 701 of which were awarded with FY 2009
appropriated funds. By March 2010, the OVW awarded 279 grants totaling
over $215 million in Recovery Act funds.7

OIG Audit Objective and Approach

      The Department of Justice Office of the Inspector General (OIG)
conducted this audit to review how the OVW administered, assessed, and
awarded Recovery Act grants. These grants were awarded in six violence
against women prevention and prosecution programs. We performed this
audit as part of ongoing OIG Recovery Act oversight to ensure that DOJ
components and award recipients use and account for Recovery Act funds
properly.8 Exhibit 3 lists the six OVW grant programs supported by Recovery
Act funds.




         7
           The 279-grant figure includes only the awards the OVW has made under its
Recovery Act grant programs. It does not include actual or anticipated contracts or
cooperative agreements that the OVW may still award with remaining Recovery Act funds.
In addition, this figure does not include two Tribal awards that the OVW is in the process of
finalizing.
       8
         U.S. Department of Justice Office of the Inspector General, Recovery Act Oversight
Plan – Updated (October 2009).
 


                                              3

           EXHIBIT 3: OVW RECOVERY ACT GRANT PROGRAMS


 OVW Recovery Act Grant
          Program                                Grant Program Purpose
Services, Training,            These formula grants support community-level criminal
Officers, and Prosecutors      justice and victim service efforts that address violent
(STOP)                         crimes against women and to strengthen pertinent law
                               enforcement and prosecution strategies. This program is
                               administered by OVW’s State and Community Liaison
                               Division.
Transitional Housing           These discretionary grants help provide public and private
Assistance                     transitional housing services that focus on moving victims
(Transitional Housing)         of domestic violence, dating violence, sexual assault, and
                               stalking into permanent housing. The OVW’s Advocacy
                               and Services Division manages this grant program.
State Sexual Assault           These block grants provide designated coalitions with
Coalitions                     funding to support victims of sexual assault. This program
                               is administered by OVW’s State and Community Liaison
                               Division.
State Domestic Violence        These block grants support designated coalitions to assist
Coalitions                     victims of domestic violence. This program is administered
                               by OVW’s State and Community Liaison Division.
Tribal Domestic Violence       OVW’s Tribal Affairs Unit administers these discretionary
and Sexual Assault             grants to assist tribal coalition initiatives working to end
Coalitions                     violence against Indian and Alaska Native women.
(Tribal Coalitions)
Tribal Governments             This program, managed by the OVW Tribal Affairs Unit,
                               awards discretionary grants that serve to decrease and
                               respond to violent crimes committed against Indian and
                               Alaska Native women.
Source: OVW

       To accomplish our audit objective, we interviewed over 20 OVW
officials and employees regarding grant program announcements and
selection activities that the OVW began conducting in February 2009. Our
review included discussions with those charged with overseeing and making
decisions on OVW award procedures.9

      The Findings and Recommendations section of this report details the
results of our audit and is presented in two parts. The first part assesses
how the OVW applied grant program statutory requirements and developed
a spending plan for its Recovery Act funds. The second part assesses the
process the OVW used to evaluate grant applications and select Recovery
Act award recipients.



       9
        Appendix I presents additional details regarding the objective, scope, and
methodology of this report.


                                             4

               FINDINGS AND RECOMMENDATIONS

I. 	   BUDGETING FOR AND ANNOUNCING OVW RECOVERY ACT
       GRANT PROGRAMS

       The OVW complied with Recovery Act and other applicable grant
       program requirements in budgeting funds for its Recovery Act
       grant programs and quickly announced Recovery Act award
       opportunities. The OVW also met specific requirements that limit
       the percentage of appropriated grant funds it may set aside to
       pay for anticipated training, technical assistance, and other
       related costs.

      The OVW worked quickly to make available Recovery Act grants to
support a broad range of initiatives to assist victims of domestic violence and
sexual assault. After it received notice of its Recovery Act funds, the OVW
developed a spending plan and announced award opportunities. The
following sections detail how the OVW: (1) developed a spending plan that
specified how it would use Recovery Act funds, (2) allocated a portion of its
Recovery Act funds to support grant-recipient training and technical
assistance, and (3) announced award opportunities to various organizations
and groups addressing violence against women.

Developing a Spending Plan

      The Recovery Act specifically provided $175 million to the OVW for
violence against women prevention and prosecution programs authorized by
the Violence Against Women Act (VAWA) and $50 million to its Transitional
Housing program. The VAWA includes requirements that the OVW must
follow when allocating appropriated funds among many of its grant
programs. For example, certain tribal programs must receive a specific
percentage or “set-aside” of total VAWA program funding. Because many
VAWA programs have such statutory set asides, the OVW developed a
spending plan in February 2009 outlining how it would distribute Recovery
Act VAWA funds, as shown by Exhibit 4.




                                      5

            EXHIBIT 4: OVW RECOVERY ACT SPENDING PLAN


                                                                           Allocated
                                                                           Amount of
                                                                          Recovery Act
  OVW Recovery Act                          Statutory                        Funds
   Grant Program                            Set-Aside                         ($)
STOP                 n/a                                                    145,626,000
Transitional Housing n/a                                                    45,000,000*
                     State and territory sexual assault
State Sexual Assault coalitions should receive 2.5 percent of
                                                               4,375,000
Coalitions           funds appropriated for VAWA prevention
                     and prosecution programs.
                     State and territory domestic violence
State Domestic       coalitions should receive 2.5 percent of
                                                               4,375,000
Violence Coalitions  funds appropriated for VAWA prevention
                     and prosecution programs.
                     Tribal coalitions should receive about 2
Tribal Coalitions    percent of funds appropriated for VAWA    3,124,000
                     prevention and prosecution program.
                     Tribal governments should receive
                     about 10 percent of funds appropriated
Tribal Governments                                            22,500,000
                     for VAWA prevention and prosecution
                     and Transitional Housing programs.
            TOTAL OVW RECOVERY ACT PROGRAM FUNDING $ 225,000,000
Source:   OVW
Note:     Although the Recovery Act provided $50 million for OVW’s Transitional Housing
          program, authorizing legislation requires the OVW to provide 10 percent of
          Transitional Housing funds to Tribal Governments. As a result, the OVW allocated
          $5 million of the Recovery Act Transitional Housing appropriation to its Tribal
          Governments program.

      We determined that OVW’s Recovery Act spending plan complied with
applicable program set-aside requirements.




                                            6

 Reserving Recovery Act Funds for Training and Technical Assistance

        OVW grant program authorizing statutes allow the OVW to use certain
 percentages of appropriated funds to provide training and technical
 assistance to applicants and oversee the progress of grant projects.10 As
 shown by Exhibit 5, the OVW reserved approximately $8.6 million
 (4 percent) of its $225 million in Recovery Act funding for training and
 technical assistance purposes, while making over $216 million (96 percent)
 of its total Recovery Act funding available to grant recipients.

   EXHIBIT 5: OVW RECOVERY ACT FUNDS AVAILABLE FOR AWARDS
   AND TRAINING, TECHNICAL ASSISTANCE, AND OTHER PURPOSES

                                                                            Reserved for
                                                                              Training,
                                                                              Technical
                                                          Available For      Assistance,
                                                             Program          and Other
                                      Spending Plan           Awards          Purposes
           Program Name                     ($)                 ($)              ($)
STOP                                      145,626,000          140,376,000       5,250,000
Transitional Housing Assistance             45,000,000          43,000,000       2,000,000
State Sexual Assault Coalitions              4,375,000           4,375,000             n/a
State Domestic Violence Coalitions           4,375,000           4,375,000             n/a
Tribal Coalitions                            3,124,000           2,873,750         250,250
Tribal Governments                          22,500,000          21,386,640       1,113,360
                              TOTALS   $ 225,000,000      $ 216,386,390       $ 8,613,610
Source: OIG analysis of the OVW spend plan and other financial-related documents

       We determined that the amount that the OVW reserved for training,
 technical assistance, and other purposes, in each of its six programs was
 within the percentage of funds that the authorizing legislation for each
 program allowed to be reserved for these purposes.

 Announcing Recovery Act Grant Opportunities

       The OVW develops and posts solicitations to announce grant programs
 to potentially interested parties. In addition to providing public notice that
 funds are available for specific initiatives, solicitations also instruct potential
 applicants how to apply for awards and the methodology by which the OVW


        10
           For the purposes of this report, training and technical assistance costs also
 include expenses and payments associated with providing application evaluation assistance,
 guidance to grantees on project development, new grantee orientation, and general
 oversight of funded project activities.



                                             7

will evaluate and select proposals for awards. The OVW Recovery Act
program solicitations generally contained the elements outlined in Exhibit 6.

   EXHIBIT 6: ELEMENTS OF OVW RECOVERY ACT SOLICITATIONS

 1.   Program Overview. Describes the mission and objectives of the announced
      program.
 2.   Registration Requirements. Details how an organization may register and
      obtain a program application.
 3.   Application Deadline. Documents the specific date and time by which the OVW
      must receive applications.
 4.   Eligibility Requirements. Details what types of organizations, such as state and
      local governments, corporations, or non-profit entities, are eligible to apply for
      program funding.
 5.   Faith-based and Other Community Organizations Clause. Documents that
      eligible faith-based and community organizations can submit proposals under the
      solicitation.
 6.   Program-Specific Information. Describes various program-based requirements
      and objectives. Also details specific Recovery Act requirements and restrictions
      such as how to track of Recovery Act funds properly.
 7.   Performance Measures. Informs applicants how program performance will be
      evaluated and measured.
 8.   How to Apply. Instructs applicants how to submit their applications for
      consideration by the OVW.
 9.   What an Application Must Include. Lists the various documents that must be
      submitted with a proposal.
 10. Selection Criteria. Details how the OVW will select awards from the proposals
     received.
 11. Review Process. Details how the OVW will review proposals received under the
     solicitation.
 12. Recovery Act Reporting Requirements. Notifies applicants that they must
     comply with Recovery Act reporting requirements, such as posting quarterly
     activity reports on FederalReporting.gov.
 Source: OIG review of OVW Recovery Act solicitations

       The OVW official who drafted the OVW’s Recovery Act program
solicitations told us that she used the DOJ template approved by the Office
of the Associate Attorney General to develop these solicitations. We
reviewed the finalized solicitations and found that they met specific OVW
grant program and Recovery Act requirements.




                                            8

       The OVW made Recovery Act solicitations available on both its website
and in the Office of Justice Programs’ Grants Management System (GMS)
between March 6, 2009, and March 13, 2009, or respectively 17 and 24 days
after the Recovery Act was signed into law.11

     As shown by Exhibit 7, the OVW solicitations provided applicants
between 18 and 27 days to develop and submit grant proposals.

 EXHIBIT 7: OVW RECOVERY ACT SOLICITATIONS AND DEADLINES

                                                Date                            Number of
                                            Solicitation      Application        Days to
            Program Name                  Posted on GMS        Deadline            Apply
 STOP                                         3/6/2009         3/24/2009            18
 Transitional Housing                        3/12/2009          4/8/2009            27
 State Domestic Violence Coalitions*          3/6/2009         3/24/2009            18
 State Sexual Assault Coalitions*             3/6/2009         3/24/2009            18
 Tribal Coalitions                           3/13/2009          4/8/2009            26
 Tribal Governments                          3/13/2009          4/9/2009            27
    AVERAGE DAYS TO APPLY FOR OVW RECOVERY ACT PROGRAMS                          23 DAYS
Source: OIG analysis of OVW solicitations
Note:      The OVW announced applications for state and territory domestic violence
           coalitions and state and territory sexual assault coalitions under the same
           solicitation.

       The OVW also sought out other ways to make its Recovery Act funding
opportunities known to potential applicants. Specific OVW program divisions
sent a series of “e-mail blasts” announcing funding opportunities and
encouraging organizations to apply for awards. The organizations that
received these e-mails included not only prior applicants, but also any
individual or group that registered on the OVW’s website. During the
application timeframe, the OVW also conducted 9 teleconferences that each
lasted 2 hours and had about 50 participants, to discuss how to apply for
awards and grant program requirements.

      The OVW received 819 applications across its 6 Recovery Act grant
programs. To assess the OVW’s solicitation efforts, we compared the
number of applications the OVW received for Recovery Act programs to the
number it received for equivalent FY 2009 grant opportunities. We found
that most Recovery Act programs received about the same number of
applications as their respective FY 2009 programs, except for Transitional
Housing and Tribal Governments that received more. Many programs
received the same number of applications because the universe of potential

      11
          The DOJ Office of Justice Programs administers the GMS used by the OVW to
support the award application, approval, tracking, and closeout functions.


                                            9

applicants for these programs was statutorily limited to states, territories,
federally recognized tribes, or other pre-designated recipients. However, the
Transitional Housing program – which, unlike the other OVW Recovery Act
programs, was open to a broad range of applicants, including non-profit
organizations – received 565 applications. This figure constitutes almost
300 more applications than the number received by the OVW just a few
months earlier for FY 2009 Transitional Housing awards. According to OVW
officials, this figure is also the largest number of applications ever received
under a single Transitional Housing solicitation.

      In our opinion, the substantial increase in the number of applications
received for the Recovery Act Transitional Housing program demonstrates
that the OVW effectively announced the availability of Recovery Act funds
under this grant program. We also believe that this shows that the OVW
provided a reasonable amount of time for applicants to apply for its
Recovery Act awards.




                                      10

II. 	 ASSESSING PROPOSALS AND RECOMMENDING RECOVERY ACT
      GRANTS

      We determined that the OVW Recovery Act grant selection
      process was generally transparent and objective. However, our
      audit identified various procedural weaknesses that the OVW
      needs to improve in the future. First, the peer reviewers for
      OVW Tribal program applications miscalculated many scores,
      which we determined changed the peer review rankings that the
      OVW considered while making award recommendations. The
      miscalculations may have affected the chances that some
      applicants had to receive a Tribal Governments Recovery Act
      award. Second, the OVW did not always ensure that contracted
      peer reviewers assessed applications for conflicts of interest
      before evaluating and scoring grant proposals. Third, the OVW
      misplaced copies of peer review scoring sheets, which are
      important records of why certain award decisions were made.


      After the application deadlines, the OVW divisions charged with
administering Recovery Act programs began reviewing grant applications.
Each division used a different process to review applications depending on
whether the program provided formula and block or discretionary grants.
Because formula and block grants are noncompetitive awards provided only
to statutorily authorized recipients, such as states and territories, the OVW
does not need to employ rigorous assessment procedures to evaluate
applications and exclude ineligible or unworthy applicants. Discretionary
grants, however, are awarded competitively to applicants whose proposals
have been peer reviewed and deemed most capable to meet program
objectives.12 As shown by Exhibit 8, three OVW Recovery Act grant
programs were discretionary programs and three others were formula and
block programs.




      12
          A comprehensive peer review subjects a grant application to the scrutiny of a
panel of impartial subject-matter experts. When conducting peer reviews for particular
grant programs, reviewers evaluate a subset of proposals and discuss the attributes of
these proposals with a panel of other reviewers. Scores are typically then computed and
ranked according to specified grant solicitation requirements. 


                                           11

              EXHIBIT 8: OVW RECOVERY ACT PROGRAMS


       Type of Grant
         Program                        Grant Program Name
                            Transitional Housing Assistance
        Discretionary       Tribal Governments
                            Tribal Coalitions
                            STOP Program
        Formula and
                            State Domestic Violence Coalitions*
           Block
                            State Sexual Assault Coalitions*
      Source: OIG analysis of OVW award program requirements
      Note:   The OVW awards grants to designated domestic violence and sexual assault
              coalitions through a single announcement because some states designate
              one coalition as both its domestic violence and sexual assault coalition.

      Because the procedures used to select recipients for discretionary
programs were distinct from those employed to select formula and block
awards recipients, we detail the OVW’s selection procedures in two sections.
The first section presents our assessment of how the OVW selected
recipients for their respective discretionary award programs. The second
section describes how the OVW chose recipients for its formula and block
programs.

Selecting Discretionary Award Recipients

      Because the recipients and amounts of discretionary grants are not
usually outlined by authorizing statutes, agencies that administer these
types of grants should establish and follow an application review process
that evaluates proposals fairly and identifies only the most worthy applicants
and projects for awards.

      Exhibit 9 presents an overview of the five-step process the OVW used
to evaluate applications for its Recovery Act discretionary grant programs.




                                          12

         EXHIBIT 9: OVERVIEW OF THE OVW DISCRETIONARY GRANT 

                          SELECTION PROCESS 




   Basic Minimum                                                           Award
                         Internal Review         Peer Review                                  Award Selection
   Requirements                                                       Recommendations


   Makes sure that       C hecks proposals      Reviews each                                  OVW Director
                                                                       C onsiders
   applicants are        for programmatic       proposal to                                   approves award
                                                                       geographic location
   eligible to apply     scope                  evaluate                                      recommendations
                                                                       of applicants (for
                                                demonstrated need
                                                                       example, to ensure
   Ensures that each     Identifies new         and expected                                  OVW announces
                                                                       at least one award
   application is        applicants and         project outcomes                              final award
                                                                       per state)
   complete (program     current grantees                                                     decisions
   narratives,                                  Assesses whether
                                                                       Excludes proposals
   budgets, and          Reviews                applications meet
                                                                       ranked low by peer
   certifications)       applications to        solicitation
                                                                       review scores
                         ensure proposed        requirements
   C hecks application   program will not
                                                                       Assesses
   format (margins,      exploit domestic       C onvenes peer
                                                                       applicant's risk for
   spacing, and page     violence and           review panels to
                                                                       fraud, waste,
   lengths)              sexual assault         discuss review
                                                                       abuse of funds and
                         victims                results
                                                                       noncompliance with
   Excludes
                                                                       grant requirements
   incomplete and        Excludes               Scores applications
   incorrectly           applications that do   based on review
                                                                       Determines final
   formatted             not meet program       results
                                                                       award amounts
   applications          or victim safety
                         standards              Ranks proposals
                                                                       C ompiles
   C ompletes initial                           based on peer
                                                                       recommendation
   screening checklist                          review score
                                                                       memorandum that
                                                                       suggests award
                                                                       recipients


Source: OIG analysis of the OVW discretionary award selection procedures

         The OVW’s discretionary award selection process generally begins with
   a screen of applications for basic minimum requirements. Once the OVW
   ensures that an application meets these basic minimum requirements, OVW
   employees can then perform what they refer to as an “internal review.”
   Internal reviews check applications to ensure that they are relevant to the
   program scope and do not include inappropriate or unallowable activities,
   such as lobbying or fundraising.13




            13
              According to OVW procedural guidelines, internal reviews are usually performed
   on applications before they are peer reviewed. However, we found that OVW staff
   performed internal reviews on Recovery Act Transitional Housing applications after they
   were peer reviewed. OVW staff told us that they did not have sufficient time to complete
   internal reviews before the peer review had been scheduled to begin. Although we note this
   inconsistency, there was no change in the results of scoring or application selection due to
   this procedural deviation.


                                                      13

      A critical part of the OVW’s discretionary award selection process is the
peer review. For its Recovery Act discretionary awards, the OVW used both
its own employees and contractors to serve as peer reviewers, or subject
matter experts, to review each application independently. Peer reviewers
assess and score each application using program specific criteria. To
conduct a peer review, the OVW assigns each peer reviewer to a panel with
one or two other peer reviewers, who discuss the results of their review and
come to a consensus about the merits of each application.

      When the OVW hired external contractors to serve as peer reviewers,
the OVW instructed them to first review the applications for conflicts of
interest and sign a form certifying that they did not have a conflict of
interest with the applicant prior to conducting the evaluation.

      After the panels finish calculating peer review scores, the OVW ranks
each application by final averaged score. During FY 2009, the OVW began
developing and using a risk assessment tool to determine whether applicants
appeared to present a high, moderate, or low risk of misusing Recovery Act
funds. According to the new policy, OVW staff was to perform risk
assessments on all applications that received peer review scores high
enough to warrant award consideration. If the risk assessment deemed an
application to be “high risk,” the application was forwarded to a supervisor
for concurrence before it could be removed from consideration for an award.

      Based largely on the rankings of peer review scores and individual
applicant risk assessments, OVW staff compiled award recommendation
memoranda for the approval of the acting OVW Director listing the
applications the staff believed merited Recovery Act funding. Under DOJ
guidelines issued in May 2008, award recommendation memoranda must
document the reasons for recommending awards to applicants whose
proposals do not receive the highest peer review scores.14

      After the OVW Director approved award recommendation memoranda,
the OVW began working with the Office of Justice Programs’ Office of the
Chief Financial Officer to review grant budgets and obligate funds for the
awards.

       The following sections detail our assessment of how the OVW selected
award recipients for its three Recovery Act discretionary programs:
(1) Transitional Housing Assistance (Transitional Housing), (2) Tribal
Governments, and (3) Tribal Domestic Violence and Sexual Assault
Coalitions (Tribal Coalitions).

      14
           A copy of this memorandum is provided at Appendix III.


                                            14

Transitional Housing Program

      Transitional Housing grants support organizations that assist victims of
domestic and sexual violence that require short-term housing or related
support services. The OVW received 565 applications for Recovery Act
Transitional Housing grants. Complete applications included a project
narrative, a budget, and letters stating that the applicant agreed to comply
with certain program requirements. The OVW created a checklist for its
reviewers to use in verifying application completeness. Applicants eligible to
receive Transitional Housing awards include non-profit or non-governmental
victim services groups.

      Screening for Basic Minimum Requirements

      OVW staff members used a basic minimum requirements checklist to
ensure that each application included all required elements before it would
be assessed for funding. OVW staff members also used this checklist to
assess whether applicants were eligible to receive Transitional Housing
funds. Out of the 565 applications received by the Transitional Housing
deadline, OVW program staff determined that 38 applications were
incomplete and that 20 applicants were not eligible to receive Transitional
Housing funds. Therefore, by applying a basic minimum requirements
checklist, the OVW excluded 58 applications from further consideration for
awards. We reviewed the OVW’s use of this checklist and found it
appropriately applied Transitional Housing requirements and guidelines.

      Conducting External Peer Reviews

      The OVW contracted with Lockheed Martin Aspen Systems (Lockheed
Martin) to coordinate the peer review of its Transitional Housing applications
with external subject matter experts. The OVW spent over $630,000 in
Recovery Act funds it had reserved for training and technical assistance to
pay for peer reviewer lodging, travel, and meeting rental space. The OVW
instructed Lockheed Martin to assign peer review panels comprised of three
experts to evaluate and score each application. Lockheed Martin then
assigned each peer review panel about 10 applications to review. Peer
reviewers received an honorarium of $100 for each application they
evaluated and scored.

      OVW staff convened an orientation session with contracted peer
reviewers to discuss the role of peer review in the application selection
process, specific Transitional Housing requirements, and how each peer
reviewer should evaluate and score the applications assigned to them. After



                                      15

this meeting, peer reviewers received copies of applications to evaluate and
score.

      Identifying Conflicts of Interest. The OVW provided peer reviewers
with a form describing potential conflicts of interest in the peer review
process. The form provided examples of various issues peer reviewers
should consider in determining whether they have a conflict of interest, such
as whether the peer reviewer was a former employee of an applicant or
worked with anyone that also worked with an applicant.

      OVW and Lockheed Martin officials stated that they told peer reviewers
to consider the issues outlined on the form and review their assigned
applications to ascertain whether they may have a conflict of interest. If a
peer reviewer identified a potential conflict of interest at that time, the peer
reviewer was instructed to bring the potential conflict of interest immediately
to the attention of OVW program staff, and the peer reviewer would
subsequently be reassigned another application to review. If a peer
reviewer did not identify a potential conflict of interest, the OVW asked that
the peer reviewer sign and date the conflict of interest form to attest that
the peer reviewer was free from conflicts of interest and therefore able to
impartially evaluate and score their assigned applications.

      Lockheed Martin provided us copies of the 148 conflict of interest
forms it received from the external peer reviewers. We reviewed each
document to ensure that each peer reviewer attested that he or she was free
from conflicts of interest. We also reviewed the dates each form was signed
and compared the date of the form to the date peer reviewers were assigned
specific applications to review.15 This comparison identified 23 instances
where peer reviewers attested that they were free from conflicts of interest
before the OVW assigned peer reviewers specific applications. Because
some peer reviewers signed conflict of interest forms before they were
scheduled to receive assigned application packets, we believe that these
peer reviewers attested that they did not have conflicts of interest without
even knowing the applicants whose proposals they were reviewing.

      We note that our review did not reveal instances where peer reviewers
had conflicts of interest with applications they were charged to evaluate and
score. We recommend that the OVW adjust its peer review process to
require that peer reviewers carefully review assigned applications for
potential conflicts of interest before they begin evaluating and scoring
proposals.

       15
          We selected this time because peer reviewers must first know what applications
they are reviewing to ascertain their conflict of interest. 


                                           16

       Scoring Applications. Peer reviewers scored applications on a 110-
point basis. To score applications, peer reviewers used standardized forms
that allocated a certain number of points to each application element. For
example, a peer reviewer could allocate up to 75 points to an application
with a project narrative that adequately described: (1) the purpose of the
project, (2) what the project would accomplish, (3) who would perform
specific project functions, (4) the economic recovery provided by the project,
and (5) whether the project would be sustainable after receiving OVW
Recovery Act funds. Peer reviewers could also allocate up to 15 points
based on budgetary details and up to 20 points to applicants that provided
all the letters and memoranda necessary to demonstrate adequate
compliance with Transitional Housing requirements.

       Once peer reviewers individually finished evaluating and scoring
applications, peer reviewers met for consensus meetings to discuss the
preliminary results of their individual reviews. These consensus meetings
were important because they provided peer reviewers with an opportunity to
discuss their scoring rationales and adjust their scores if, during their
individual review, a peer reviewer missed something. An associate staff
member hired by Lockheed Martin attended each peer review panel
consensus meeting and documented the issues discussed and decisions
made. The OVW subsequently used the comment summaries and ranked
scores to help make final recommendation decisions.

       Performing OVW Internal Reviews

       OVW staff members conducted an internal review of applications that
received the highest average peer review score to ensure that high scoring
proposals were within the scope of the Transitional Housing program.16 OVW
staff checked the applications to: (1) ensure that proposals met statutory
funding requirements, (2) highlight programs that would assist states and
territories exhibiting the highest unemployment rates, and (3) assess
whether the amount requested by the applicant was reasonable considering
the amount of funding the OVW had available for the program-at-large.




       16
          OVW staff traditionally performed the internal review after the basic minimum
requirements review but before the peer review. However, OVW officials told us that
because of the large number of applications received for the Recovery Act Transitional
Housing Program, coupled with the accelerated timeframe between application receipt and
peer review, it was decided that OVW staff should conduct the internal review after the peer
review.



                                            17

      During this internal review, OVW staff members also reassessed each
applicant’s eligibility and ensured applications met the purpose and scope of
the solicitation requirements. In addition, OVW staff members double-
checked applications to ensure that Recovery Act funds would not be used to
support projects that had already been approved to receive FY 2009 funding.

      Conducting Risk Assessments for Transitional Housing Applicants

       As discussed previously, the OVW developed and applied a risk
assessment tool to evaluate the potential risk specific Transitional Housing
applicants had for misusing Recovery Act funds. This was the first time, at
least in recent years, that such a tool was used by OVW program specialists,
and we view it as a positive step towards improving grant management
oversight. This section discusses how OVW staff performed the risk
assessments on Recovery Act Transitional Housing applications.

      OVW program specialists first determined whether the applicant
received OVW awards in the past. The OVW’s risk assessment tool assessed
prior performance on awards to determine whether an applicant should be
disqualified from receiving Recovery Act funds. According to the risk
assessment form, an applicant could be disqualified if it: (1) did not resolve
audit findings, (2) did not submit a Single Audit on time, or (3) was rated as
a high-risk grantee by the Office of Justice Programs. In addition, the tool
assigned risk “values” to other performance attributes such as timeliness
and accuracy of financial status reports and progress reports.

       We reviewed how program specialists completed and applied a sample
of risk assessment forms and found that the OVW used risk assessment
results to eliminate some applicants from consideration for receiving
Transitional Housing Recovery Act awards.

      Preparing and Approving the Award Recommendation Memorandum

       The acting OVW Director approved an award recommendation
memorandum dated June 2, 2009 that detailed the process OVW staff used
to select 91 awards. Along with this memorandum, the OVW also provided
its Acting Director with a binder containing various award documents such as
a list of the highest-scoring applicants by state, reasons why the OVW
excluded various applicants for funding consideration, and a copy of the
solicitation that listed project requirements. We reviewed the approved
award memorandum with its attachments to ensure that the documents
complied with applicable DOJ award-making guidelines. We determined that
the award recommendation memorandum generally complied with these DOJ
guidelines.


                                      18

      Once finalized, the 91 Recovery Act Transitional Housing awards
totaled $42,651,316, which left $348,684 in unawarded Transitional Housing
Recovery Act funds. OVW officials told us that they are developing plans
that will ensure that the remaining money will be used to further the
objectives of the Transitional Housing program and the Recovery Act. We
therefore recommend that the OVW continue developing its plan that will
use $348,684 in unawarded Recovery Act funds appropriately.

Tribal Governments and Tribal Coalitions Programs

      The OVW administered two discretionary Recovery Act grant programs
focused on preventing domestic and sexual violence in Indian tribal
communities and helping victims of such crimes. The Tribal Governments
program is intended to enhance the ability of Indian and Alaska Native tribes
to respond to violent crimes against women, while the Tribal Coalitions
program focuses on supporting Indian and Alaska Native coalitions
established to combat domestic violence or sexual assault. The OVW made
$21,386,640 in Recovery Act funds available for Tribal Governments grants
and $2,873,750 available for Tribal Coalitions grants.

      Screening for Basic Minimum Requirements

       The OVW received 91 Tribal Governments applications and 20
applications for the Tribal Coalitions program. OVW staff members checked
each of these applications for basic minimum requirements, including
whether the application was complete and the applicant was eligible to
receive funding.17 OVW program specialists were instructed to remove any
application from consideration that was substantially incomplete or
submitted by organizations that were not eligible to receive awards.
Exhibit 10 lists the number of applications excluded for each of the two
Tribal programs based on the results of the screening for basic minimum
requirements.




      17
          Only federally recognized Indian and Alaska Native governments, their authorized
designees, or certain tribal consortiums could receive OVW Recovery Act Tribal Government
Program awards, while only incorporated tribal coalitions that addressed domestic violence
or sexual assault against American Indian and Alaska Native women could receive OVW
Recovery Act Tribal Coalition Program grants.



                                           19

  EXHIBIT 10: BASIC MINIMUM REQUIREMENTS REVIEW RESULTS 

              FOR TRIBAL PROGRAM APPLICATIONS 


                                              Number of
                                             Applications
                                            Excluded For
                                             Not Meeting      Number of
                              Number of         Basic        Applications
                             Applications     Minimum        Forwarded to
        Program Name           Received     Requirements     Peer Review
      Tribal Governments               91               15              76
      Tribal Coalitions                20                9              11
                     TOTAL            111               24              87
     Source: OIG analysis of OVW award documents

     The 87 applications that passed the basic minimum requirements
checks were then internally peer reviewed by OVW employees.

      Performing Peer Reviews and Internal Reviews

      The OVW used its own staff members to conduct peer reviews on
applications received for its two Recovery Act Tribal discretionary programs.
Because the two programs had unique requirements, the OVW convened a
separate series of peer reviews for each program. Because OVW personnel
performed both the peer review step and the internal review step, OVW
personnel performed both steps on each application concurrently. As a
result, this section presents an overview and our assessment of the peer
review and internal review steps performed by OVW staff on Tribal
Governments and Tribal Coalitions applications.

       To help peer reviewers score applications consistently, the OVW
provided them with template scoring sheets to use in scoring the
applications each was assigned to evaluate. These scoring sheets allocated
point values to various application elements. For example, if a Tribal
Governments application included a complete project narrative that detailed
all program requirements, the peer reviewer could allocate up to 75 points
for just the project narrative. Peer reviewers rated Tribal Governments
applications on a 110-point scale and Tribal Coalitions applications on an 80-
point scale.




                                      20

      Once a peer reviewer finished assigning points to an application, the
peer reviewer conducted an internal review to assess whether the
application contained certain project information and double-check that the
proposed project did not involve precluded activities, such as lobbying, or
otherwise might compromise victim safety and anonymity. Similar to the
peer review step, the staff member used the OVW scoring sheet to complete
the internal review. Unlike the peer review scoring sheet, which added
points to an application’s score, the internal review scoring sheet deducted
points for application deficiencies.

       After completing both sets of scoring sheets, OVW staff members
convened peer review panels to discuss the results of their independent
review of applications, ascertain the merits of each application, and
determine each application’s final score. These meetings were important
because they provided OVW staff members who served as peer reviewers an
opportunity to compare notes and ensure that each reviewer understood
critical elements of each rated proposal. After the meetings, peer reviewers
averaged their individual scores and submitted the final average score for
each application to the OVW officials who were supervising the peer reviews.
OVW officials then ranked the applications by the final average score for
each program.

       We reviewed copies of all scoring sheets maintained by the OVW and
used by its employee peer reviewers to evaluate Tribal Governments and
Tribal Coalitions applications to determine whether OVW employees
consistently and accurately calculated peer review and internal review
scores.18

       Our review found that OVW peer reviewers incorrectly calculated the
final average peer review scores of 43 out of the 77 applications we were
able to test for these two programs. In addition, the OVW could not locate
complete copies of scoring sheets and other evaluation documents for
another 10 Tribal Governments applications. Below, we detail our specific
findings regarding peer and internal review scoring errors and the issue of
the OVW not being able to locate all peer and internal review scoring
documents.




       18
           Because a preliminary review of OVW scoring sheets found several miscalculations
in computing peer review scores, we expanded our testing to encompass all 87 tribal
program applications forwarded to peer review. We performed our score analysis by
recalculating the point values and subtotals OVW peer reviewers provided on each scoring
sheet. Our review did not re-evaluate or otherwise assign scores to the applications.  


                                            21

       Miscalculated Individual Application Scores. OVW scoring sheets
contained several tables that peer reviewers used to assign and deduct
points for each section of the application. Each section was comprised of
various elements, and the scoring sheets assigned each of these elements a
point value. For example, peer reviewers were able to allocate up to 8
points to applications that had clear goals and objectives and 7 points to
applications that proposed activities that realistically could be completed
within the project’s proposed timeframe. The peer reviewer then manually
subtotaled the points awarded to each element section-by-section. Once all
the elements were assessed, peer reviewers then added section subtotal
scores together on a separate point summary page to compute the final
individual score for each application.

       To determine whether peer reviewers computed the final individual
scores of applications correctly, we reviewed the point values peer reviewers
assigned to individual elements of Tribal Governments and Tribal Coalitions
scoring tables. We used individual point values to recalculate section
subtotals and final individual scores of these applications. Our review
identified 43 applications – 39 for Tribal Governments and 4 for Tribal
Coalitions – where individual OVW peer reviewers miscalculated section
subtotals, individual final scores, and in some cases, both section subtotals
and individual final scores.

      For example, a peer reviewer for one Tribal Governments application
allocated a total of 26 points to different elements of the project narrative
subsection on the scoring sheet used to evaluate applications. However, to
obtain the subsection total, peer reviewers had to add the points for each
project narrative element manually. For this application, the peer reviewer
incorrectly added the points for each element and recorded a section
subtotal of 28 points instead of 26 points.

       Peer reviewers then used a separate summary sheet to add subsection
scores to calculate the individual final score for each application. The peer
reviewer carried over the incorrect 28-point subtotal for the project narrative
section to the summary sheet and then incorrectly summed the subtotals
from the different sections in calculating the final score. However, this peer
reviewer made a second calculation error in summing the subtotals from the
different sections. Therefore, the dual miscalculations led to this application
receiving a peer review score of 80 points instead of the correct 77 points.




                                      22

       Overall, our review of subtotal scores found that miscalculations
resulted in individual applications both gaining and losing points, which
ended up raising the final scores of some grant proposals and lowering the
final scores of others. Because OVW staff considered peer review score
rankings in ranking the list of applicants that should receive an award
recommendation, miscalculated peer review scores could affect the award
recommendations for the OVW Director’s final approval.

      To determine whether such point summation errors affected
application rankings, we used the original point values to recalculate the
correct score for each application. We then re-ranked the recalculated
scores for both Tribal programs. Once we compared the corrected scores to
the original OVW rankings, we identified instances where miscalculated
scores changed the peer review rankings that OVW staff considered to make
award recommendations. As shown in Exhibit 11, three applications
received erroneously inflated peer review scores, which ranked them above
two other applications that should have actually been ranked higher.




                                     23

                EXHIBIT 11: EFFECTS OF OVW PEER REVIEW SCORE MISCALCULATIONS ON 

                            TRIBAL GOVERNMENTS APPLICATION RANKINGS


                                   OVW                                 OIG
                                 Calculated                            Re-
                                   Score        Recommended         Calculated
                                  (Out of         for Award           Score
 Applicant Name and State           110)           (Yes/No)        (Out of 110)        OIG-Assessed Effect of Miscalculation
Big Valley Band of Pomo              79               Yes               73         Applicant’s score miscalculated by six points,
Indians, California                                                                which led it to receive a much higher ranking
                                                                                   than it might have otherwise received. This may
                                                                                   have been a deciding factor for the applicant to
                                                                                   receive an award.
Squaxin Island Tribe,                 79              Yes               78         Applicant’s score miscalculated by 1 point, which
Washington                                                                         placed the applicant above 78 points, which was
                                                                                   the lowest score received by a recommended
                                                                                   application.
Swinomish Indian Tribal               78              Yes               73         Applicant’s score miscalculated by five points.
Community, Washington                                                              The corrected score made it the lowest-scoring
                                                                                   application that received a recommendation for
                                                                                   funding.
Coeur d’Alene Tribe, Idaho            78              No                78         Although the OVW did not miscalculate this
                                                                                   applicant’s score, if the OVW did not
                                                                                   miscalculate other applicant’s scores above, this
                                                                                   applicant’s score may have been ranked high
                                                                                   enough to receive a recommendation for
                                                                                   funding.
Kalispel Tribe of Indians,            77              No               77.5        Applicant’s score was miscalculated by 0.5
Washington                                                                         points. If the OVW did not miscalculate this and
                                                                                   other applicant scores, this applicant’s score
                                                                                   may have been ranked high enough to receive a
                                                                                   recommendation for funding.
Source:   OIG analysis of OVW Tribal Governments peer review scoring sheets
Note:     We assessed the effect of miscalculated scores by using the OVW-calculated score for applications that we could not
          recalculate because the OVW could not provide us copies of necessary supporting documents.




                                                                24
       We found that OVW staff recommended that the three applications
that incorrectly received higher peer review scores receive Tribal
Governments awards, but did not recommend Recovery awards for
applications that mistakenly received lower-rankings.19

       However, because peer review scores are just one factor that OVW
staff considers in making award recommendations, we cannot say with
certainty that these applications did not receive an award solely due to these
score miscalculations. Yet, because these miscalculations changed the
rankings of applications, these miscalculations may have caused the OVW to
decide not to recommend a Tribal Governments Recovery Act award to the
Coeur d’Alene Tribe and the Kalispel Tribe of Indians.

       Our testing found that OVW staff also miscalculated the final peer
review score for 4 out of 11 Tribal Coalitions applications. However, unlike
the miscalculations that occurred for Tribal Governments, we found that the
Tribal Coalitions miscalculations did not affect whether specific applicants
received award recommendations since all Tribal Coalitions applicants that
met basic minimum requirements and other program criteria ultimately
received a Recovery Act award.

       We discussed several examples of point summation errors with OVW
officials who had administered the scoring process. Based on these
discussions and the evidence provided by the scoring sheets, we believe that
human error was the cause of incorrect score calculations. We believe it is
critical that the OVW ensures that its application reviewers consistently
compute scores it subsequently ranks to make award recommendations.
Because miscalculations and other errors affect discretionary award
decisions, we recommend that the OVW institute better internal controls that
will check for scoring errors and verify the accuracy of future final peer
review scores.

      Missing Peer Review Scoring Sheets. In addition, the OVW was not
able to locate all scoring documents pertaining to 10 out of 76 Tribal
Governments applications it had forwarded to its employees for review. As a
result, we were not able to validate OVW peer review score calculations for
these 10 applications.



        19
            OVW officials told us that all Tribal Government applicants who applied for both
Recovery Act and FY 2009 funding received at least a Recovery Act or an FY 2009 award.
We confirmed that both the Coeur d’Alene Tribal Community and Kalispel Tribe of Indians
received FY 2009 Tribal Government awards and these awards were for the same or similar
activities proposed by their Recovery Act applications.


                                             25

      According to OVW officials, the scoring sheets for these applications
were lost sometime after award decisions were made. Without maintaining
copies of complete award scoring sheets for all applications that it peer
reviewed, the OVW cannot demonstrate that its discretionary award process
treated every application consistently and objectively. Additionally,
according to federal regulation, federal agencies must preserve all
documents related to critical agency functions and decisions.20 Because peer
review scores play an integral part in the OVW award decision-making
process, we recommend that the OVW implement procedures to ensure that
it maintains copies of all peer review scoring sheets used to evaluate and
score discretionary grant applications.

       Conducting Risk Assessments for Tribal Program Applicants

       The OVW completed risk assessments for applicants that received high
scores and used these assessments to eliminate several applicants from
consideration for funding. The OVW found that some of these applicants had
not submitted required Single Audit reports under OMB Circular A-133. At
least two other applicants did not receive award consideration for other
reasons.21

       Preparing and Approving Award Recommendation Memoranda

      On May 18, 2009, the acting OVW Director approved two award
recommendation memoranda, one for each Recovery Act Tribal program,
which detailed the procedures OVW employees used to select which entities
should receive OVW awards. Along with each memorandum, the OVW also
provided its Acting Director with a binder containing various award
documents, including a list of the highest-scoring awards by state, reasons
why the OVW excluded some applicants from consideration for funding, and
a copy of the solicitation listing award elements and project requirements.

      We reviewed both award memoranda and information included in the
attached binders to ensure that the documents complied with applicable DOJ
award-making guidelines. We found that the Tribal Coalitions award
recommendation memorandum and attachments complied with internal DOJ
guidelines that require justifications for selecting lower-scoring applicants for
awards over higher-scoring applicants. However, the award
recommendation memorandum prepared for Tribal Governments did not

       20
            44 U.S.C. § 3101 (2008)
       21
           The OVW rejected one applicant because it was on the Office of Justice Programs’
high-risk list and non-responsive in addressing grant audit issues. Another applicant was
rejected because it was delinquent in paying back federal debts.


                                            26

include justifications for why six applicants that received higher scores than
other recommended applicants did not receive a recommendation for
funding.

      OVW officials told us they excluded five of the six high-scoring
applicants from receiving award recommendations because of risk
assessment results. The OVW officials said the one remaining applicant did
not receive an award recommendation because it was located in the same
state as two other higher-scoring recipients and the OVW strived to provide
awards to tribes in different states and territories. Although the OVW
offered justifiable reasons for not recommending these applicants for
awards, DOJ policy requires that the OVW document these reasons in its
award decision material. We therefore recommend that the OVW ensure
that future award recommendation memoranda include written justifications
stating why higher scoring applications were not selected for awards.

       As of March 2010 the OVW finalized 45 Recovery Act Tribal programs
awards totaling $23,458,112. The OVW was also in the process of finalizing
two additional awards worth $738,662. The OVW has allocated $24,260,390
to Tribal program grants, but has not yet awarded $63,616 in Recovery Act
funds to address violence against women on Tribal lands. OVW officials told
us that they are developing a plan that will ensure that it uses the remaining
monies to further the objectives of the Tribal programs and the purposes of
the Recovery Act. We therefore recommend that the OVW continue
developing this plan to use the $63,616 in unawarded Recovery Act funds.

Selecting Formula and Block Award Recipients

      The OVW’s process for awarding Recovery Act formula and block
grants is dictated by the legislation authorizing the program and by annual
appropriations. Because the program authorizing legislation designates both
the recipients and amounts of each formula or block award, the OVW
generally has no discretionary authority over whether to make an award.
Therefore, once the OVW received word of its Recovery Act appropriation,
the OVW notified eligible grant formula and block recipients of their potential
award.

       However, the OVW required that eligible entities first submit an
application for funds to receive an award. The following sections detail our
review of the OVW’s process used to select and finalize Recovery Act awards
for its STOP and State Domestic Violence and Sexual Assault Coalitions
programs.




                                      27

STOP Program

       Over $140 million in Recovery Act funds was allocated to OVW STOP
grants for developing and improving state and local law enforcement and
prosecution strategies for violent crimes against women. Only states and
territories may be the prime recipients of STOP funds, but other entities
within each state, such as local court systems, police departments, and non-
profit service groups, can be sub-recipients of STOP grants.

       Formula Calculations and Award Announcements

       Each state and territory is entitled to STOP funds based on the number
of people within its jurisdiction in proportion to the overall population of the
United States.22 The OVW used the formula outlined in the STOP program’s
authorizing legislation to determine the amount of each state or territory’s
award.23 As shown by Exhibit 12, this formula provided that each state or
territory receive a base award of $600,000 and additional funds based on
the ratio of each state or territory’s population to the population of the
United States.

            EXHIBIT 12: RECOVERY ACT STOP PROGRAM FORMULA



                                                                      (P - Y)
               Award
              Amount                       (
                     = $600,000 + A - $33,600,000                )(       Z     )
                                         Formula Legend:

                 A – Amount of Funds Authorized for the STOP Program
                 P – State or territory population
                 Y – Number of registered members of American Indian tribes
                 Z – Estimated population of the United States


       Source:   OIG analysis of STOP award formula, as provided in
                 42 U.S.C. § 3796gg (2006)
       Note: 	   The $33.6 million figure in the formula is the base award amount
                 ($600,000) provided to each of the 56 states and territories
                 ($600,000*56).




       22
           The STOP Program authorizing statute calculates the population of each state and
territory by first subtracting the number of persons registered to American Indian tribes
within each jurisdiction from the total population of that jurisdiction.
         
        23
           See 42 U.S.C. § 3796gg (2006)


                                               28

       The OVW announced the amount of Recovery Act funds each state and
territory was eligible to receive under the STOP program in March 2009.
OVW officials told us they applied the STOP formula shown above with the
most up-to-date U.S. Census Bureau data available to determine the amount
each state and territory was eligible to receive.

      As shown by Exhibit 13, the amount the OVW allocated to each state
or territory ranged from American Samoa’s $622,658 to California’s
$13,298,809.

      EXHIBIT 13: OVW RECOVERY ACT STOP PROGRAM AWARD
                         ALLOCATIONS

                          Amount                                   Amount
     State or Territory     ($)             State or Territory      ($)
 Alabama                   2,220,871     New Hampshire              1,058,641
 Alaska                      803,624     New Jersey                 3,624,711
 Arizona                   2,767,911     New Mexico                 1,228,450
 Arkansas                  1,589,942     New York                   7,374,913
 California               13,298,809     North Carolina             3,784,210
 Colorado                  2,306,619     North Dakota                 812,159
 Connecticut               1,819,310     Ohio                       4,604,597
 Delaware                    903,933     Oklahoma                   1,773,156
 District of Columbia        806,053     Oregon                     1,906,545
 Florida                   6,976,652     Pennsylvania               4,942,096
 Georgia                   3,973,732     Rhode Island                 965,065
 Hawaii                    1,047,877     South Carolina             2,159,535
 Idaho                     1,125,019     South Dakota                 857,968
 Illinois                  5,094,365     Tennessee                  2,765,332
 Indiana                   2,821,938     Texas                      9,042,754
 Iowa                      1,645,347     Utah                       1,544,099
 Kansas                    1,569,660     Vermont                      816,288
 Kentucky                  2,088,443     Virginia                   3,305,800
 Louisiana                 2,132,194     Washington                 2,852,125
 Maine                     1,057,447     West Virginia              1,232,720
 Maryland                  2,562,236     Wisconsin                  2,548,507
 Massachusetts             2,864,277     Wyoming                      781,663
 Michigan                  4,074,946     Puerto Rico                1,978,993
 Minnesota                 2,403,272     Virgin Islands               638,390
 Mississippi               1,622,147     Guam                         661,510
 Missouri                  2,655,994     American Samoa               622,658
 Montana                     916,955     N. Mariana Islands           630,273
 Nebraska                  1,217,180       RECOVERY ACT STOP
                                                                 $ 140,376,000
 Nevada                    1,496,089            PROGRAM TOTAL
Source: OVW




                                       29

       To assess whether the OVW accurately applied the STOP formula and
allocated the correct amount of Recovery Act funds to each state and
territory, we independently calculated each state and territory’s STOP award
using the most recent population data available from the U.S. Census
Bureau.24 We compared the result of our calculations to OVW’s calculations
and found that the OVW accurately calculated Recovery Act STOP awards.

       Collecting and Reviewing STOP Applications

      Each state and territory had to submit an application before receiving
a STOP program award allocation. Program guidelines require that STOP
applications include a narrative describing how the state or territory will
account for and use award funds; attestation letters from various
government officials, such as prosecutors, law enforcement officers, and
court personnel; and required certifications. Applications also detailed how
many jobs the state or territory predicted its Recovery Act STOP award
would preserve or create.

       The OVW received 55 applications for its Recovery Act STOP program
and made 55 awards totaling $139,745,928. Every state and territory
submitted an application for Recovery Act STOP program funds except the
Commonwealth of the Northern Mariana Islands (Northern Mariana Islands).
At our request, the OVW followed-up with representatives of the Northern
Mariana Islands and found that they chose not to apply for Recovery Act
STOP program awards because the Northern Mariana Islands received
sufficient federal funding to support its ongoing violence against women
programs.

      Because the Northern Mariana Islands chose not to receive a Recovery
Act STOP award, over $630,000 in Recovery Act funds that the OVW
reserved for this grant remain unawarded. OVW officials told us that they
are working on a plan to ensure that it uses these funds to further STOP
program and Recovery Act purposes.




        24
           The most recent population data available from the U.S. Census Bureau during
the allocation period were the 2008 estimates of each state or territory’s population and the
2007 estimates of each state or territory’s tribal population.



                                             30

State Domestic Violence and Sexual Assault Coalition Block Programs

       The Recovery Act provided $8,750,000 to two OVW block programs
aimed at funding state and territory-level coalitions that support and
coordinate domestic violence and sexual assault services. Under these block
programs, each state and territory that has designated organizations that
serve as a domestic violence coalition and a sexual assault coalition should
receive block awards. In some cases, the same organization may serve as
both the domestic violence and sexual assault coalition for a state or
territory. Under the Recovery Act, each designated domestic violence or
sexual assault coalition was eligible to receive a block grant of $78,125. In
cases where an organization was dually designated as a state or territory’s
domestic violence and sexual assault coalition, that organization was eligible
for a block grant of $156,250.

      The OVW announced the Recovery Act state coalition block grant
funding opportunities on March 6, 2009, and required eligible applicants to
submit completed applications for block grants by March 24, 2009. The
OVW accepted hard copy and electronic applications from coalitions. The
OVW received 88 applications for block grants and therefore made 88
awards to state and territory domestic violence and sexual assault coalitions.
The OVW awarded a total of $8,515,625 to coalitions under these
programs.25

       Because OVW allocated $156,250 in block grants to each state and
territory, if a state or territory did not have a designated coalition that was
active, the Recovery Act funds allocated to that state or territory were not
awarded. Exhibit 14 details the three instances where we found a state or
territory did not have a designated or active domestic violence or sexual
assault coalition.




       25
          The OVW awarded $2,578,125 to domestic violence coalitions, $2,656,250 to
sexual assault coalitions, and $3,281,250 to organizations that served as both a domestic
violence and the sexual assault coalition for a state or territory.


                                            31

 EXHIBIT 14: UNAWARDED OVW STATE COALITION BLOCK GRANTS


                                                                         Amount of
                                                                        Block Grant
                                  Reason Application Was Not            Not Awarded
     Coalition Name                          Submitted                       ($)
Ohio Sexual Assault             The entity was defunct during                  78,125
Coalition                       application period.
American Samoa Domestic         The territory did not have a                  78,125
Violence Coalition              designated domestic violence
                                coalition.
Northern Mariana Islands        The territory did not have a                  78,125
Domestic Violence               designated domestic violence
Coalition                       coalition.
                                                             TOTAL         $ 234,375
Source: OIG analysis of block grant recipients by state and territory

       The state domestic violence and sexual assault coalition program’s
authorizing statute requires the OVW to allocate block awards to the
coalitions for each state or territory, regardless of whether the state or
territory designates or is able to maintain an eligible coalition.
Consequently, the OVW reserved but was unable to award $234,375 in
Recovery Act funds to state or territory coalitions that were either defunct or
otherwise unable to receive program funds. OVW officials told us that they
are working on a plan to use these remaining funds for allowable program-
related purposes. We therefore recommend that the OVW continue
developing a plan to use the $234,375 in remaining Recovery Act funds.




                                             32

Recommendations

We recommend that the OVW:

1.	   Adjust its peer review process to require that peer reviewers carefully
      review assigned applications for potential conflicts of interest after
      they received their assignment of applications to review but before
      they actually begin evaluating and scoring proposals.

2.	   Institute better internal controls that will check for scoring errors and
      verify the accuracy of future final peer review scores.

3.	   Implement procedures to ensure that it maintains copies of all
      documents used to evaluate and score discretionary grant applications.

4.	   Ensure that future award recommendation memoranda include written
      justifications stating why higher scoring applications were not selected
      for awards.

5.	   Finalize plans to ensure that the $1,276,747 in Recovery Act funds
      that remain unawarded across six OVW programs will be used for
      program-related purposes.




                                       33

                  STATEMENT ON COMPLIANCE

                 WITH LAWS AND REGULATIONS 


      As required by the Government Auditing Standards, we tested, as
appropriate given our audit scope and objectives, selected records,
procedures, and practices, to obtain reasonable assurance that the
management of the Office on Violence Against Women (OVW) complied with
federal laws and regulations, for which noncompliance, in our judgment,
could have a material effect on the results of our audit. OVW managers are
responsible for ensuring compliance with federal laws, regulations, and
applicable Department of Justice guidelines relevant to its grant selection
procedures. In planning our audit, we identified the following laws,
regulations, and requirements that concerned the operations of the OVW and
that were significant within the context of the audit objectives:

  	 American Recovery and Reinvestment Act of 2009, Pub. L. No. 111-5,
     § 1512(c);

  	 Violence Against Women Act of 1994, as amended, 42 U.S.C. § 

     3796gg et seq. and § 13975 et seq.; 


  	 Preserving documents regarding functional areas, 44 U.S.C. § 3101.

      Our audit included examining, on a test basis, OVW’s compliance with
the aforementioned laws, regulations, and requirements that could have a
material effect on its operations, through interviewing auditee personnel,
assessing internal control procedures, and examining copies of actual
procedural practices and award decision documents. As noted in the
Findings and Recommendations section of this report, we found that the
OVW did not fully comply with the Department of Justice policy regarding the
proper documentation of discretionary award recommendations and
decisions for its Recovery Act Tribal Governments program.




                                    34

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of internal controls employed by the
Office on Violence Against Women (OVW) was not made to provide
assurance on its internal control structure as a whole (emphasis added).
OVW management is responsible for the establishment and maintenance of
internal controls.

      As noted in the Findings and Recommendations section of this report,
we identified deficiencies with regard to OVW internal controls involving
scoring individual peer review scores for applications. These deficiencies
were significant within the context of the audit objectives and based upon
the audit work performed that we believe adversely affect the ability of the
OVW to guarantee that its grant selection process objectively and fairly
assesses applicants for award programs. The Findings and
Recommendations section of this report contains the specific details
regarding these internal control deficiencies and our recommendations for
corrective action.

       Because we are not expressing an opinion on the internal control
structure employed by the OVW as a whole, this statement is intended solely
for the information and use of the auditee. This restriction is not intended to
limit the distribution of this report, which is a matter of public record.




                                      35

                   ACRONYMS

BPA    Blanket Purchase Agreement

DOJ    Department of Justice

GMS    Grants Management System

OIG    Department of Justice Office of the Inspector General

OMB    Office of Management and Budget

OVW    Office on Violence Against Women

STOP   Services, Training, Officers, and Prosecutors

VAWA   Violence Against Women Act




                         36

                                                                           APPENDIX I

              OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

      The Department of Justice Office of the Inspector General (OIG)
conducted this audit to review how the Office on Violence Against Women
(OVW) administered, assessed, and awarded Recovery Act grants for
violence against women prevention and prosecution programs. The purpose
of our review was to assess whether the grant selection procedures used by
the OVW treated grant applications fairly and objectively. The audit was
performed as part of the ongoing OIG Recovery Act oversight initiative being
performed to ensure that DOJ components and award recipients use and
account for Recovery Act funds properly. 26

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our audit objective.

      Because we performed this audit at the same time the OVW
administered its Recovery Act programs and made award decisions, we
occasionally provided OVW personnel with technical advice and non-audit
services under generally accepted government auditing standards 3.26 and
3.27. The following lists the instances where the OIG provided this
information.

   	 On March 13, 2009, we offered the OVW advice on handling proposals
      for both FY 2009 and Recovery Act Transitional Housing Assistance
      Program awards;

   	 On June 3, 2009, we provided the OVW a management advisory
      memorandum asking that it consider coordinating aspects of its
      Transitional Housing Assistance program with other federal housing
      grant programs;


       26
          U.S. Department of Justice Office of the Inspector General, Recovery Act
Oversight Plan – Updated (October 2009). 


                                            37

  	 On August 27, 2009, we offered the OVW our insights regarding best
     practices for grant monitoring plans based on our knowledge of grant
     performance issues and prior grant audit reports;

  	 On October 21, 2009, we participated in an OVW employee quarterly
     report data assurance training session and asked questions regarding
     how OVW would check for specific Recovery Act reporting
     requirements;

  	 On October 28, 2009, we provided the OVW with a management
     advisory memorandum that asked it to confirm that the
     Commonwealth of the Northern Mariana Islands was not requesting a
     formula award; and

  	 On January 25, 2010, we provided the OVW with a list of Recovery Act
     award recipients that we determined had not reported quarterly
     activity to FederalReporting.gov to assist it in its efforts to ensure that
     all recipients post quarterly reports.

      The technical advice we offered the OVW did not involve performing
management functions or making management decisions. We further did
not: (1) include in our audit an assessment of any technical advice we
provided the OVW, or (2) provide the OVW with technical advice that we
believe was significant or material to the subject matter of this audit.
Because the technical advice we provided was purely advisory and not
intended to be used as the primary basis for any OVW management
decision, the technical advice does not impair our independence under
generally accepted government auditing standard 3.22.

      Our audit generally encompassed OVW Recovery Act activities that
began in February 2009. To accomplish our audit objective, we conducted
fieldwork and interviewed OVW employees and contractors in Washington,
D.C. and Rockville, Maryland. Our review included discussions with those
charged with overseeing OVW award procedures, including the acting OVW
Director and OVW Deputy and Associate Directors. Since our review focused
on the process the OVW used to solicit, assess, and award grants, we did not
evaluate or seek to evaluate the individual merits of the programs or
projects that ultimately received OVW Recovery Act awards. Instead,
through interviews and analysis of official award making documents, we did
attempt to acquire an understanding of the rationale for OVW awards
decisions.

     We obtained what we believe to be necessary and sufficient
documentation to achieve our audit objective. Throughout the audit, we


                                      38

relied on computer-generated data to obtain necessary information about
grant proposals and awards from the Office of Justice Programs’ Grants
Management System (GMS) used by the OVW to track grant awards. For
example, we used GMS data to compile the total final award amounts by
Recovery Act program. Although we did not assess the reliability of the
Grants Management System data, we do not believe the reliability of such
data adversely affects our findings or recommendations. We also relied on
electronically derived information from Recovery.gov and
FederalReporting.gov websites to conduct our analysis of Recovery Act
quarterly reporting.

       To compute the peer review score of each discretionary application,
OVW staff tallied scores awarded by peer reviewers for each application
element. To test the accuracy of peer review score calculations, we selected
a judgmental sample of scoring sheets and evaluated the internal controls
OVW used to calculate final peer review scores. The judgmental sample
included testing a number of applications we believe necessary to support
our conclusions regarding the accuracy of peer review scores tabulations.
Our judgmental sample revealed a significant number of incorrect scores for
Tribal Governments and Tribal Coalitions applications. As a result, we
expanded our testing of scoring sheets and tested all score calculations for
these two programs.

      We identified relevant internal policies and manuals pertaining to
OVW’s grant-making process, including the OVW 2009 Peer Review
Guidelines and 2009 Grant Monitoring Manual. We also reviewed peer
review scoring sheets, grant applications, award files, risk assessment
forms, and applicable OVW directives and correspondence.

      In addition, we reviewed task orders issued by the OVW under its OVW
blanket purchase agreement with Lockheed Martin Aspen Systems
Corporation (Lockheed Martin). The task order requested that Lockheed
Martin coordinate, conduct, and provide other logistical support for OVW’s
peer review performed for its Recovery Act Transitional Housing Assistance
program. We reviewed and analyzed this task order to assess how OVW
conducted and oversaw the external peer review process.




                                     39

                                                                          APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS

                                                                                Page
              Dollar-Related Finding                       Amount ($)          Number

 Funds To Be Put To A Better Use:27


    Allocated but unawarded Transitional
    Housing program funds                                        348,684          19


    Allocated but unawarded Tribal
    Governments and Tribal Coalitions
    programs funds                                                 63,616         27


    Allocated but unawarded STOP program
    funds                                                        630,072          30


    Allocated but unawarded domestic violence
    and sexual assault coalition block grant
    funds                                                        234,375          32


 TOTAL DOLLAR-RELATED FINDINGS:                               1,276,747




   27
     Funds to be put to a better use are monies that could be used more efficiently if
management took actions to implement and complete audit recommendations.



                                            40

                                                                                                  APPENDIX III

         ASSOCIATE ATTORNEY GENERAL AWARD
               DOCUMENTATION POLICY

                                                          U. S. Department of Justice

                                                          Office of the Associate Attorney General




The Associate Attorney General                            Washington. D.C. 20530


                                                           May 28, 2008



 MEMORANDUM TO:                     Mr. Jeffrey L. Sedgwick
                                    Acting Assistant Attorney General, Office of Justice Programs

                                    Ms. Cynthia Dyer
                                    Director, Office on Violence Against Women

                                    Mr. Carl R. Peed
                                    Director, COPS Office

 FROM:                              Mr. Kevin 1. O'Connor      '{...:1J
                                    Associate Attorney General

 SUBJECT:                           Documentation of Discretionary Award Recommendations and
                                    Decisions

         It is critical that, in the process of determining which organizations will receive grant
 dollars, those decisions be clearly documented for the record so as to avoid any misconceptions
 or misrepresentations in the future.

          As a result, beginning in fiscal year 2008, all discretionary funding recommendations and
 decisions should be documented as described below. These requirements represent a minimum
 standard; components may choose to add others as they establish or refme their grant policies. It
 is an internal component decision as to how to implement the requirements of this memo.

        All final approved award recommendation memoranda for grant programs undergoing
 external or intemal peer reviews must include the following:

            •         A list of applications received to include the lowest scoring application to be
                      funded and every application scoring higher, regardless of whether it was funded.
                      This list may be divided into categories and subcategories if they were published
                      in the solicitation.

            •         A brief explanation as to why an application on the above list was not funded.

       All discretionary recommendations made absent a peer review process must be
 documented and clearly explain the choices made, the reasons for the choices, and the policy




                                                        41
           ....




considerations on which the decisions were based. An otherwise uninfonned reader should be
able to understand the process used and the final decisions made.

        All final award decisions must be documented as required by this memorandum,
including any changes made as a result of discussions between those recommending grants and
the decision maker. Such changes in the fmal approved award decision memorandum must
reflect who made the decision to vary from a recommendation memo and his or her reasons for it.

cc:    Director, Bureau of Justice Assistance
       Administrator, Office of Juvenile Justice and Delinquency Prevention
       Director, Office for Victims of Crime
       Director, Bureau of Justice Statistics
       Director, National Institute of Justice
       Director, SMART Office
       Director, Community Capacity Development Office




                                              -2-




                                             42
                                                                             APPENDIX IV

                OVW RESPONSE TO THE DRAFT REPORT


June 23, 2010


MEMORANDUM TO: David M. Shereen
               Regional Audit Manager
               Denver Regional Audit Office

FROM:                   Susan B. Carbon Director
                        Director
                        Office on Violence Against Women

SUBJECT:                The Office on Violence Against Women's Recovery Act Grant
                        Selection Process

This memorandum is in response to your correspondence dated June 11, 2010 transmitting the
above draft audit report for the Office on Violence Against Women (OVW). We consider the
subject report resolved and request written acceptance of this action from your office.

The report contains five recommendations. The OVW agrees with the recommendations and is
committed to working to address each item and bring them to a close as quickly as possible.
The following is an analysis of the audit recommendations:

   1) This recommendation can be closed when OVW provides evidence that policies and
      procedures have been updated to ensure that peer reviewers carefully review assigned
      applications for potential conflicts of interest and considers any conflicts when
      evaluating and scoring grant proposals.

   2) This recommendation can be closed when OVW provides evidence that internal
      controls have been updated to review scoring errors and verify the accuracy of future
      final peer review scores.

   3) This recommendation can be closed when OVW provides evidence that procedures
      have been implemented to ensure that OVW maintains adequate copies of
      documentation used to evaluate and score discretionary grant applications.

   4) This recommendation can be closed when OVW provides evidence that future award
       recommendation memorandum include written justifications stating why higher scoring
      applications were not selected for awards.




                                              43

   5) This recommendation can be closed when OVW provides evidence that plans have been
      finalized to ensure that the $1,276,747 in Recovery Act funds, that remain unawarded
      for six OVW programs, will be used for program-related purposes only. OVW will
      forward a report showing funds are obligated.

We appreciate the opportunity to review and comment on the draft report. We will continue to
work on addressing the recommendations. If you have any questions or require additional
information, please contact Rodney Samuels of my staff at (202) 514-9820.

cc: Richard P. Theis
    Assistant Director
    Audit Liaison Group
    Justice Management Division

    Kotora Padgett
    Accounting Officer
    Office on Violence Against Women




                                              44

                                                                APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the OVW. The OVW’s
response is incorporated in Appendix IV of this final report. The following
provides the summary of actions necessary to close each of the
recommendations in the report.

     1. Resolved. The OVW concurred with our recommendation to adjust
        its peer review process to require that peer reviewers review
        assigned applications for potential conflicts of interest after they
        receive their application assignments but before they actually begin
        evaluating and scoring proposals. This recommendation can be
        closed when the OVW provides us with evidence that it has
        adjusted its peer review process to require that peer reviewers
        review assigned applications for potential conflicts of interest after
        they receive their application assignments but before they actually
        begin evaluating and scoring proposals.

     2. Resolved. The OVW concurred with our recommendation to
        implement better internal controls that will check for scoring errors
        and verify the accuracy of future final peer review scores. This
        recommendation can be closed when the OVW provides us with
        evidence that the internal controls have been updated to identify
        and correct peer review scoring tabulation errors.

     3. Resolved. The OVW concurred with our recommendation to
        implement procedures to ensure that it maintains copies of all
        documents used to evaluate and score discretionary grant
        applications. This recommendation can be closed when the OVW
        provides evidence that the procedures used to archive relevant
        grant-making documents have been updated to ensure the
        documents are maintained properly.




                                     45

4. Resolved. The OVW concurred with our recommendation to
   ensure that future award recommendation memoranda include
   written justifications stating why higher scoring applications were
   not selected for awards. This recommendation can be closed when
   the OVW: (1) provides a copy of any internal instruction to
   program staff stating that award justifications need to be included
   in the recommendation memoranda, and (2) evidences that
   discretionary grant program recommendation memoranda now
   comply with the policy.

5. Resolved. The OVW concurred with our recommendation and has
   agreed to finalize plans to ensure that the $1,276,747 in Recovery
   Act funds that remain unawarded across six OVW programs will be
   used for program-related purposes. This recommendation can be
   closed when the OVW provides us with a plan to use the remaining
   Recovery Act funds, including a timeline to ensure that the funds
   are obligated before September 30, 2010.




                               46

